HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
California," (A-09-07-00084)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in California," (A-09-07-00084)
February 27, 2008
Complete
Text of Report is available in PDF format (644 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were
to determine whether the State agency had (1) implemented the recommendations
made in our previous audit of the California drug rebate program and (2)
established controls over collecting rebates on single source drugs administered
by physicians.  We found that the State agency (1) implemented the prior
recommendation related to dispute resolution and (2) established controls over
collecting rebates on 81 single source drugs administered by physicians.
However, the State agency did not fully implement the previous recommendation
regarding quarterly reporting.
We recommended that the State
agency ensure that the system change scheduled for implementation provides
documentation to support rebate amounts reported to CMS.  In
written comments on the draft report, the State agency addressed our
recommendation by stating that it is working on a system change that will enable
it to capture and document the data to support rebate amounts reported to CMS
quarterly.  The change is scheduled to be implemented by July 15, 2008.